                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM
-              -                                    -                                      -     -




Case Number: I08050035                                                           11           Page 1 of 1



            We received an allegation that an NSF employee1may have downloaded inappropriate material
            of a sexual nature on a portable storage device. Our investigation determined that the employee
            used his NSF computer to store and send sexually explicit images.

            We provided the attached report of investigation ( ~ 0 1to) ~
                                                                        the appropriate NSF official for
            administrative action. Based on our findings and the employee's prior letter of reprimand for
            similar behavior, NSF proposed terminati~n.~    Although the employee responded to the
            proposed termination, NSF subsequently terminated the employee.4 In lieu of agency action, no
            further actionis warranted and this case is closed.




                                i


jF   OIG Form 2 (1 1/02)
                           /'
    Please note: This report contains confidential personal information and it should be disclosed
    only to individuals who must have knowledge of its contents to facilitate NSF's assessment
    and resolution of this matter. Unauthorized disclosure may result in personal criminal
    liability under the Privacy Act, 5 U.S.C. 9 552a(i)(l).


                                              Summary

During our investigation into an allegation concerning a National Science Foundation (NSF)
employee1,we determined that the NSF employee inappropriately viewed, stored and emailed a
number of sexually explicit images and videos using NSF computer systems. We believe such
behavior violates NSF's Personal Use of Policy for NSF Technology and Communication
                                    ,'
Resources in NSF Bulletin 04-1 1 dated November 3,2004 as well as the expectations of an
NSF employee discussed in NSF's Personnel Manual 14,' and suggest that NSF take appropriate
action to address the employee's behavior.


                                          OIG Investigation

      A. Background

In May 2008, we began an investigation into an allegation that the employee downloaded
inappropriate, sexually explicit materials onto a portable storage d e ~ i c e A
                                                                               . ~senior NSF
manager5 (manager 1) told us that he received a thumb drive from the employee in April 2008
and, while attempting to use the thumb drive, manager 1 observed a video in which a man was
reaching out to a woman in such a way that suggested sexual activity was about to occur.
Because he knew that the employee had previously received a letter of reprimand LOR),^
manager 1 gave the thumb drive to another NSF manager7 (manager 2) to verify his findings.

Manger 2 watched portions of the video and confirmed that the thumb drive contained a
pornographic video. Subsequently, during an OIG interview, manager 2 reiterated that the
employee received an LOR on October 2,2007, for downloading sexually explicit image files on
his NSF computer and using peer-to-peer software. At the time of the 10107 LOR, manager 2
counseled the employee and told him not to access inappropriate sites in the future. She also told



1

  T a b I. NSF's Personal Use of Policy for NSF Technology and Communication Resources and
http:llwww.inside.nsf.gov/pubs/issuanceslibO4 I 1 rev.pd f
3 T a b 2 (applicable section) and http://www.inside.nsf.gov/oirm/hdgeneral~infomation/pd~peman.pdf
    the employee to delete all the inappropriate files of a sexual nature on his computer.' Manager 2
    provided us with a copy of the 10107 LOR.^ We also obtained the thumb drive that the employee
    had given to manager 1.


I   C. OIG Analysis

    As part of our review, we examined the thumb drive," requested and received copies of the
    contents of the employee's R" drive, c12drive and NSF email account in June 2008.') We
    analyzed the contents of the drives and emails.

        1. Thumb Drive
    During our review of the thumb drive, we found eight sexually explicit videos that had been
    downloaded from pornographic websites; all had been modified" prior to 10107. However, our
    investigation found no evidence that the employee visited the pornographic websites contained
    on the thumb drivel5or used peer-to peer software on his computer after receiving his 10107
    LOR, nor could we substantiate the allegation that the employee was responsible for copying the
    sexually explicit videos onto the thumb drive. Our review of the employee's R and C drives and
    emails was more conclusive.

       2. Other NSF Computer Systems.
    Our review of the employees NSF computer systems, the R drive, C drive,16and his emails,
    established that the employee failed to remove all of the sexually explicit materials from his NSF
    drives and emails after the 10/07 LOR. We found 66 sexually explicit items received or
    modified prior to October 2,2007 and maintained after the employee received the 10107 LOR;
    they are listed in Table 1:




    " The R drive is a designated network drive assigned to NSF employees for individual uselstorage of data and
      accessible only by the employee and/or OIRMIDIS technical personnel.



    " Modified here refers to the modified date which tracks the date that a file or folder was last changed.
    " We   reviewed the cookie history contained on the C drive, which coven the period 19 May 2008 - June 18 2008.
    "Cuokics arc sniall text files tlial Wch sitcs pill on your colnputcr lo stole a varicly orillfor~na~ion
                                                                                                           aboii~you or )our
    prebrcnccs S o ~ n cWch sitcs ntore your user name and password or othci pcnonally idcntiliahlc 111bmlatio11        about
    you in a cooltic." Microsofi Orfice Online at l~lLp://o~ficc.~nicrosoft.co~n/cn-uslhclpll  IA0 1 19066710''
    16 Prior to the 10107 LOR, the employee saved 22 sexually explicit photos of himself andor a femaleJcompanion
                                                                                                                J . ~ S ~ X and
    a sexually explicit photos of another on his R drive.
     Table 1: Items Modified or Received Before 10107 LOR and Stored on Employees
     NSF Computer System as of June 2008

 1   Location of Explicit Items     1   # of Explicit
                                        Items
                                                        1   Modified & Stored
                                                            (Prior 10107)
     Images on C drive                  0                   0
     Images on R drive                  2217                Modified 12/22/05 - 10/23/06
     # images on NSF Email              41                  Emailed 1116/04 - 711 1106
     Account (5 emails)I8
     Videos stored on NSF email         3                   Received 01/23/06 - 03/07/07
     ~ccount'~
     Total                              66

Specifically, we determined that the employee never erased 22 inappropriate, sexually explicit
images from his R drive after receiving the 10107 LOR and being counseled to do so by manager
2. The employee also stored emails containing 41 sexually explicit images and 3 sexually
explicit videos. Based on our understanding of the 10107 LOR and the subsequent counseling
session, everything in Table 1 should have been erased after the employee was counseled in
conjunction with the 10107 LOR.

In addition to the items stored prior to the 10107 LOR, our investigation found that there were 60
items emailed or modified after the employee received the 10107 LOR:
   Table 2: Items Modified or Sent After 10/07 LOR and Stored on Employee's NSF
   Computer System as of June 2008

   Location of Explicit Items           # of explicit        Dates
                                        items                Modified or Emailed (after 10107)
   Images on C drive                    5                    Modified between 11/05/08 - 6/6/08
   Images on R drive                    121                  Modified 4/3/08
   Images --sent via NSF Email (9       52                   Emailed from 10/24/07 4110108-     1
   ern ail^)^^
   Videos sent via NSF email            2                    Emailed 4116/08
   account23 (1 email)
   Total                                60

Since October 2007, the employee has used his NSF email account to send 9 emails with 52
sexually explicit images (the images were saved on his R drive prior to the 10107 LOR and
never removed).24 He also used his NSF email to send an additional email with 2 sexually
explicit videos. Furthermore, by using his NSF account to email the images and videos outside
of NSF, the employee linked the sexually explicit images and videos (in Table 2) to N S F . ~ O V . ~ ~
A revied6 of the employee's Integrated Time & Attendance System (ITAS) records disclosed he
was at work when he sent the 10 inappropriate emails.
                                                                          J




We interviewed the employee on July 25,2008; at which time he read and signed a statement
explaining that the interview was voluntary.27 The employee confirmed that he had completed
Computer Security Awareness trainin for 2007 and was aware of the NSF "User
Responsibilities - Rules of Beha~ior."~ When shown the sexually explicit image files found on
his R drive, the employee acknowledged he had stored 22 inappropriate files on his R drive. He
acknowledged those files contained sexually explicit images of him and a female companion.
He stored them on his R drive because his home computer was not working.

As a sign of his acknowledgement, the employee initialed and dated copies of his 10 emails (See
Table 2).29 The employee said his emails were sent to users outside of NSF,~'and that he spent




" The two pornographic videos were entitled "Squirt Woman," and "The Squirt Woman Two."




                                                 curity awareness training in 2004-2007. He has since taken
the training fnr 7nnR
minimal time sending the inappropriate emails. He acknowledged that sending the emails was
an inappropriate use of government equipment, indicated he was sorry, and said it will not
happen again.

Via affidavit3' the employee admitted the following:

       He received an LOR on October 2,2007, for downloading sexually explicit files and
       peer-to-peer software to his computer. At that time, he was told to delete the sexually
       explicit files that had been downloaded to his computer.
       He was told that he could keep personal images on his R drive, and he did so.
       He did not tell management that he had sexually explicit images on his R drive.
       He had 22 sexually explicit files on his R drive.
       He should have deleted the sexually explicit images from his R drive.32
       He did not download any sexually explicit files from websites or peer-to-peer software
       after receiving his LOR.
       He acknowledged downloading an image of a tennis star wearing a see-through shirt.33
       He sent the 10 emails with sexually explicit images and videos.
       He stored 5 five sexually oriented images on his C drive after the 10107 LOR.)^

After interviewing the employee, in August 2008, we again obtained updated copies of his
emails, C and R drives, to verify that he had erased the explicit files as promised.35 We
determined that, although he has erased all of the inappropriate and sexually explicit images on
his C and R drives, he continues to maintain copies of inappropriate emails in his NSF email
account.36 Based on the browser history37obtained as part of his C drive, we noted that between
July 7,2008 and August 21,2008, he has continued to copiously browse sexually explicit and
inappropriate internet sites.38

   E. Applicable NSF Policies

Based on the employee's actions, we believe he repeatedly and knowingly violated NSF's        .
Personal Use of NSF S Technology and Communication, NSF's Personnel Manual 1d3' and
regulations promulgated by the Office of Government Ethics.
 NSF's policy entitled Personal Use of NSF's Technology and Communication Resources
 contained in NSF Bulletin 04-1 1 ("NSF's Personal Use P O I ~ C ~ states:
                                                                   "),~~

            Employees may make use of the Internet and electronic mail for matters that are
            not official business provided that the following criteria are met: (1) the use does
            not,result in an additional charge to the government, (2) the use is not offensive to
            coworkers or the public (such as sexually explicit or otherwise inappropriate web
            sites),"and (3) the use is not for illegal activities (such as gambling or the
            distribution of copyrighted materialslmedia through illegal file sharing [peer to
            peer] or othe~wise).~'



                 ''
 NSF's Personal Use Policy also states "[alny personal use of the agency's property is subject to
 the overridin expectation that employees will give the government a full day's labor for a full
 day's pay." NSF's policy also creates express limitations on personal use, incorporating by
 reference the Federal CIO Council's 1999 Model Policv/Guidance on "Limited Personal Use"
 ("Model Policy"), which states that employees should not use government office equipment
 inappropriately and provides examples such as: "[ulsing government office equipment for
 activities that are illegal, inappropriate, or offensive to fellow employees or the public . . . and
  . . . the creation, download, viewing, storage, copying, or transmission of sexually explicit or
 sexually oriented material^."^^

 The NSF IT training course includes a module entitled "User Responsibilities-Rules of
 ~ e h a v i o r . "NSF
                    ~ ~ users agree to comply with the rules, one of which states the following:

            ...I understand that NSF IT resources, including e-mail accounts, are for authorized
            Government use only and in accordance with NSF policy, any activity that would
            discredit NSF, including seeking, transmitting, collecting, or storing defamatory,
            discriminatory, obscene, harassing, or intimidating messages or material is not
            permitted.45

In addition to the specific policies for use of NSF equipment, NSF employees are bound by
ethical rules and regulations, such as those enumerated in Personnel Manual 14, which states
"NSF employees are expected to adhere to basis standards of integrity and decency. NSF
employees must not engage in criminal, dishonest, immoral or any other conduct that is
prejudicial to the ~ o v e r n m e n t . " ~ ~




40   NSF Bulletin 04-1 1. Tab 1 and http:llwww.inside.nsf.gov/pubs/issuances/ibO4 1 1rev.pdf
41
     Ibid at 1.
42
     Ibid.
43   Model Policy, 3 C "Inappropriate Personal Use." Tab 1A
44   NSF IT Security "User Responsibilities -Rules of Behavior." Tab 12.
45   Ibid.
46   NSF Manual 14, 5 1-143. Tab 2.
NSF Manual 15, "Conflicts Of Interest And Standards Of Ethical Conduct," also speaks to the
requisite behavior of an NSF employee, stating that an NSF employees should.

            Endeavor to avoid any actions creating the appearance that [they] are violating the
            law or other ethical standards.

            Unless specifically authorized otherwise, [they] must use [their] official time only
                                                                 47
            in an honest effort to perform official duties. . . .


                                                OIG Conclusions

Based on the evidence we found and the subject's admissions, we conclude that the employee
used his NSF computer to inappropriately store 22 sexually explicit images on his R drive. The
employee also used his NSF computer and NSF email to send 10 emails that contained sexually
explicit images and videos to users outside NSF. Furthermore, the employee continues to use his
NSF computer to seek out, access and view inappropriate and sexually explicit web sites. The
employee's actions were done after he received a LOR for similar misbehavior and after he told
us that he would cease such activities.

By storing, viewing, and sending sexually explicit images and videos on or with his
NSF computer, the employee knowingly violated policies contained in NSF Bulletin 04-1 1
Personal Use of Policy for NSF Technology and Communication Resources and NSFYsPersonal
Use Policy.

                                            OIG Recommendations

Based on the conclusions outlined above, we recommend that the NSF proceed with
administrative actions that are appropriate and consistent with previous similar incidents with
regard to an NSF employee:

a. Who misused his NSF computer systems to engage in the storing, viewing, and sending of
sexually explicit images and videos in violation of NSF policies; and

b. Whose misuse of official time for inappropriate activities violates the government's standards
of ethical conduct.

c. Who continues to misuse his NSF computer systems, in spite of a 10107 LOR for similar
behavior, by seeking out and viewing inappropriate sites on the internet, in spite of an LOR and
the knowledge he is the subject of an NSF 0 1 0 investigation into his admittedly inappropriate
use of such systems.




47   NSF Manual 15, § 3(14) and $ 56(d), Tab 13 and http:l/www.nsf.gov/pubs/manuals/manuall5.pdf
                                                                                                                        P




 '    ,--        ..
"!.         *-        I -   %
                                I
                                                                           National Science Foundatic
                                                                           4201 Wilson Boulevard
                                                                           Arlington, Virginia 22230




                                    Date:                    December 1,2008

                                    To:


                                    From:


                                    Subject:                  Notice of Proposal to Remove


                                    This is notice that I propose to remove you from your position of Junior Project Specialist no sooner than
                                    thirty (30) days from the date of your receipt of this notice. This action is taken for both your failure to
                                    follow instructions and your misuse of government equipment.

                                    As background, an inquiry was initiated into your use of government computer equipment by the Office of
                                    the Inspector General (OIG) following receipt of a thumb drive that was in your possession containing
                                    sexually explicit videos. The results of that inquiry are outlined in Investigative Report Number 108050035
                                    which is incorporated into this notice of proposal by reference. The OIG report could not substantiate that
                                    you downloaded sexually explicit videos on your thumb drive, but it did substantiate that you stored
                                    sexually explicit files on your computer; that you sent emails containing these files and sexually explicit
                                    videos utilizing your NSF email account; that you were previously warned about this behavior and
                                    instructed to remove all inappropriate files from vmlr comnuter: and that vou visited pornographic
                                    websites after being interviewed by the OIG.

                                    Charge #IFailure t o Follow Instructions

                                    O n July 25, 2008 you were interviewed by     ,                                                      from the
                                    OIG related to alleged computer misuse. Prior to the interview, you were advised of your right to
                                    representat~on.In the interview you told investigators that you received a Letter of Reprimand on October
                                    2, 2007 for downloading sexually explicit files and peer to peer software. At the time you received the
                                    Letter o f Reprimand I told you to delete all sexually explicit material from your computer and to not access
                                    inappropriate sites in the future

                                    Desplte recelvlng lnstructlons from me to remove all sexually expllclt materlal from your government
                                    computer, you continued to store sexually expllclt Images on your R drlve and save sexually exphclt
                                    emalls o n your computer The OIG lnvestlgatlon conflrrned that all of these flles were mod~fledand stored
                                    between the dates of December 22, 2005 and March 7, 2007 and should have been deleted when you
                                    recelved my rnstructlons Ttie spec~flcat~onsl~sted below support the charge of fallure to follow
                                    lnstructlons

                                    Specification #I
                                    An examination of your computer revealed that you failed to delete from your computer a sexually expllc~t
                                    image identified as DF88 with a modification date of October 23. 2006, affer I instructed you to delete
                                    such items. The image wh~chIS attached to and incorporated into this not~ceunder tab 1 is of a penls

                                    Specification #2
                                    An examinaton of you1 computer revealed that you b l e d to delete from your computer a sexually eipllc~t
                                    Image ident~fledas file bin2 wltli a modlf~cat~on
                                                                                   dale of December 30 2005, aner I Instructed you to delete
                                    such teni is The Image wbich is attached to a n d ~ncorporatedlrito this not~ceunder tab 1 IS of a vagina
                                    wit11 a flnger belng Inserted
Specification #3
An examination of your computer revealed that you failed to delete from your computer a sexually explicit
image identified as file.bin3 with a modification date of December 30, 2005, after I instructed you to delete
such items. The image which is attached to and incorporated into this notice under tab 1 is of a woman's
vagina being opened by fingers.

Specification #4
An examination of your computer revealed that you failed to delete from your computer a sexually explicit
image identified as P4180034 with a modification date of May 19, 2006, after I instructed you to delete
such items. The image which is attached to and incorporated into this notice under tab 1 is of a hand
holding what appears to be your penis

Specification #5
An examination of your computer revealed that you failed to delete from your computer a sexually explicit
image identified as P4180035 with a modification date of May 19, 2006, after I instructed you to delete
such items. The image which is attached to and incorporated into this notice under tab 1 is a close u p
photo of a woman's vaginal area.

Specification #6
An examination of your computer revealed that you failed to delete from your computer a sexually explicit
image identified as PB030009 with a modification date of December 22, 2005, after I instructed you t o
delete such items. The image which is attached to and incorporated into this notice under tab 1, is of y o u
holding your penis while standing with your shorts at your waist

Specification #7
An examination of your computer revealed that you failed to delete from your computer a sexually explicit
image identified as PC170016 with a mod~ficationdate of December 22, 2005, after I instructed you to
delete such items. The image which is attached to and incorporated into this notice under tab 1 is of a
woman holding what appears to be your penis to her lips

Specification #a
An examination of your computer revealedthat you failed to delete from your computer a sexually explicit
image identified as PC170017 with a modification date of December 22, 2005, after I instructed you to
delete such items. The image which is attached to and incorporated into this notice under tab 1 is of a
woman holding what appears to be your penis while pressing it against her lips.

Specification #9
An examination of your computer revealed that you failed to delete from your computer a sexually expl~cit
image identified as PC170018 with a modification date of December 22, 2005, after I instructed you to
delete such items. The image which is attached to and incorporated into this notice under tab 1 is of a
woman holding what appears to be your penis while incasing it in her lips

Specification # I 0
An examination of your computer revealed that you failed to delete from your computer a sexually explicit
Image identified as.PC170019 with a modification date of December 22, 2005, after I instructed you to
delete such items. The image which is attached to and incorporated into this notice under tab 1, is of you
ly~ngdown nude with your penis exposed.

Specification #I 1
An examination of your computer revealed that you failed to delete fr01-nyour computer a sexually explicit
image identified as PC170020 with a modification date of December 22, 2005, after I instructed you to
delete such items    The image which IS attached to and incorporated Into this notice under tab 1 is a
woman holdlng what appears to be your penis in her hand.
Specification #12
A n examination of your computer revealed that you failed to delete from your computer a sexually explicit
image identified as PC170021 with a modification date of December 22, 2005, after I instructed you to
delete such items. The image which is attached to and incorporated into this notice under tab Iis of a
woman with breast exposed holding what appears to be your penis in her hand while licking it with her
tongue.

Specification # I 3
An examination of your computer revealed that you failed to delete from your computer a sexually explicit
image identified as PC170022 with a modification date of January 10, 2006, after I instructed you t o
delete such items. The image which is attached to and incorporated into this notice under tab 1 is of what
appears to be the back view of your penis resting on a woman's hand.

Specification # I 4
An examination of your computer revealed that you failed to delete from your computer a sexually explicit
image identified as PC170025 with a modification date of December 22, 2005, after I instructed you to
delete such items. The image which is attached to and incorporated into this notice under tab 1 is of you
licking the nipple of a woman's breast.

Specification # I 5
An examination of your computer revealed that you failed to delete from your computer a sexually explicit
image identified as PC170026 with a modification date of December 22, 2005, after I instructed you to
delete such items. The image which is attached to and incorporated into this notice under tab 1 is of a
woman's anal cavity and vaginal area

Specification # I 6
An examination of your computer revealed that you failed to delete from your computer a sexually explicit
image identified as PC170027 after being instructed by your supervisor to delete such items. The image
which is attached to and incorporated into this notice under tab 1 is of a woman's vaginal area.

 Specification # I 7
An examination of your computer revealed that you failed to delete from your computer a sexually explicit
image identified as PC170028 with a modification date of December 22, 2005, after I instructed you to
delete such items. The image which is attached to and incorporated into this notice under tab l', is of a
woman's hand touching what appears to be your penis.

Specification # I 8
An examination of your computer revealed that you failed to delete from your computer a sexually explicit
image identified as PC230025 with a modification date of January 10, 2006, after I instructed you to
delete such items. The image which is attached to and incorporated into this notice under tab 1 is of you
standing fully nude holding a cup

Specification # I 9
An examlnatlon of your computer revealed that you falled to delete from your computer a sexually e x p l ~ c ~ t
Image identlf~edas PC230028 wlth a mod~flcatlondate of January 10, 2006, after I Instructed you to
delete such Items The Image whlch IS attached to and incorporated into th~snotice under tab 1 IS of you
standlng fully nude holdfng a cup while looklng down at your penls

Specification #20
An examinatton of your computer revealed that you failed to delete from your computer a sexually expliclt
image ~dentlf~ed  as PC230029 with a rnod~flcat~on    date of January 10. 2006 afier I instructed you to
delete such Items The Image which IS attached to and incorporated ~ntoth~snotice under tab 1 IS of you
standing fully nude holdlng a cup wlth your arrns ralsed
     Specification #21
     An examination of your computer revealed that you failed to delete from your computer a sexually explicit
     image identified as PC230030 with a modification date of January 10, 2006, after I instructed you t o
     delete such items. The image which is attached to and incorporated into this notice under tab I is of you
     standing fully nude holding a cup with your arms slightly bent.

     Specification #22
     An examination of your computer revealed that you failed to delete from your computer a sexually explicit
     image identified as PC230031 with a modification date of January 10, 2006, after I instructed you t o
     delete such items. The image which is attached to and incorporated into this notice under tab 1 is of you
     standing fully nude with a woman's foot outstretched toward your penis.

     Specification #23
     An examination of your computer revealed that you failed to delete from your computer an email dated
     January 16, 2004 with the subject line "FW: Please be careful." The email had a power point attached
     entitled "butts.ppt" which contained 13 images of nude women photographed from the rear exposing
     buttocks and genitals. The images are attached to and incorporated into this notice under tab 3.

     Specification #24
     An examination of your computer revealed that you failed to delete from your computer an email dated
     August 31, 2005 with the subject line "FW: R U Thankful?". The email contains three power point
     attachments entitled "huh.ppt" with 32 images, "sunshine.ppt" with 24 images, and "tiara slide.pptn with 15
     images, for a total of 71 images of partially clothed females in sexually suggestive poses. The images
     are attached to and incorporated into this notice under tab 4.

     Specification #25
     An examination of your computer revealed that you failed to delete from your computer an email dated
     January., 23, 2006 with the subject line "FW: Got milk". The email contains a 40 second sexually explicit
     video showing a female masturbating The disk containing the video is attached to and incorporated into
     this notice under tab 2.

     Specification #26
     An examination of your computer revealed that you failed to delete from your computer an email dated
     January 24, 2006 with the subject line "FW: Tribute to thickness". The email contains a power point slide
     showing images of 31 partially clothed females in sexually suggestive poses. The images are attached
     to and incorporated into this notice under tab 5 .

'>   Specification #27
     An examination of your computer revealed that you failed to delete from your computer an email dated
     July 11, 2006 with the subject line "FW: Stacy Dash's Playboy Spread - Pics (be careful)". The email
     contains 11 images of a partially clothed and nude female in sexually suggestive poses. The Images are
     attached to and incorporated into this notice under tab 6.

     Specification #28
     An examination of your computer revealed that you failed to delete from your computer an emall dated
     March 7, 2007 with the subject line "FW: The Squirt Woman (xXx)Open ONLY in Private"           The email
     contained two sexually expl~citvideos, one lasting 20 seconds and the other lasting 1 minute and 21
     seconds showing various indrviduals engaged In sexual activity. The dlsk containing the video is attached
     to and incorporated into this notice under tab 2

     Charqe #2 Misuse of Government Equipment
     On July 25, 2008 you were interviewed by                                                             from the
     OIG related to alleged computer. misuse Prior to the Illleivlew, yuu were advised of your rigtit to
     representation. In the ~nterviewyo11told investigators that you received a Letter of Reprimand on October
     2. 2007 for download~ngsexually expl~citfiles arid peer to peer softvdare In yo~ir-sworn statemen( datecl
     July 25,2000 you acknowledged send~rlpenias will1 ser~~ally        aplicil llilages a i d \!~deos and stor~ng
sexually explicit files on your R and C drive. You also acknowledged completing the NSF Computer
Awareness training that advised you about user responsibility and unauthorized use of government
resources. The following specificatians reflect activity that occurred after October 2, 2007.

Specification #I
An email that you sent dated October 24, 2007 with the subject line "RE****SEXY BBW WITH A P H A T
ASS****LOOKING 4 FUN****NSA** - w4m-26" was found stored on your computer. The email contained
three (3) images, with two (2) of the images showing you totally nude. The email was your response t o a
personal ad on Craigslist. The images are attached to and incorporated into this notice under tab 7.

Specification #2
An email that you sent dated October 26, 2007 with the subject line "White Wife looking for BBC"
encounter was found stored on your computer. The email contained one image of you lying down nude
with your penis exposed. Your corresponding email message read "I would love to give you some of this".
The email was your response to a personal ad. The image is attached to and incorporated into this
notice under tab 7.

Specification #3
An email that you sent dated October 31, 2007 with the subject line RE: "FUCK AND SUCK-w4m-22" w a s
found stored on your computer. The email had an attachment that conta~nedan image of a penis. Your
corresponding email message read "What you think about sucking on that". The image is attached to a n d
incorporated into this notice under tab 7.

Specification #4
An email that you sent at 12:56pm dated November 28, 2007 was found stored on your computer. T h e
email contained a total of 13 images. Twelve (12) of those images were sexually explicit images of you
nude and engaged in sexual activity. The images are attached to and incorporated into this notice under
tab 8.

Specification #5
A n email that you sent at 12:56pm dated November 28, 2007 y a s found stored on your computer. The
email contained a total of 34 images. Twenty two (22) of those images were sexually explicit photos of
you nude and engaged in sexual activity. The images are attached to and incorporated into this notice
under tab 8.

Specification #6
An email that you sent at 12:57pm dated November 28, 2007 was found stored on your computer. The
email contained a total of 9 images. Six of the images were sexually explicit photos of you nude. The
images are attached to and incorporated into this notice under tab 9.

Specification #7
A n email that you sent at 12:58pm dated November 28, 2007 was found stored on your computer. The
ernail contained a total of 10 images Three (3). of the images were sexually explicit photos of you nude
and engaged in sexual activity. The images are attached to and incorporated into this notice under tab 9.

Specification #8
An ernail that you. sent dated December 7, 2007 with the subject line "YOUNG MAN FOR OLDER
WOMEN (fwb)-w4m" was found stored on your computer. The email contained an image of you lying
down nude with your penis exposed. The ernail was your response to a personal ad on Craigslist The
images are attached to and incorporated into this notice under tab 9.  t.


Specification #9
An ernall that you sent dated Aprll 10 2008 wlth the subject llne "140 pounds of ass was found stored on
your computer The emall conta~nedan Image of you ly~ngdown nude w~thyour penls exposed Your
correspond~ngetnall message read "I would love lo glve you some of th~s The emall was your cesponse
to a personal ad on Cra~gsl~stThe 1rn3ge1s attactled to and ~ncorporateciInto this 11ot1Leunder tab 9
Specification #10
An email that you sent dated April 16, 2008 with the subject line "FW: The Squirt Women (xXx)Open
ONLY in Private" was found stored on your computer. The email contained two sexually explicit videos,
one lasting 20 seconds and the other lasting 1 minute and 2 1 seconds showing various individuals
engaged in sexual activity. The disk containing the videos is attached to and incorporated into this notice
under tab 2

Specification #I1
A n examination of your R drive revealed that you stored 23 sexually explicit photos of you nude and
engaged in sexual activity. The images are attached to and incorporated into this notice under tab 10.

Specification # I 2
A n examination of your C drive revealed that you stored 5 images of scantily dressed women.            The
imagesare attached to and incorporated into this notice under tab 11.

Specification # 13
A n examination of your browser history for July 7, 2008, revealed that you visited the pornographic
websites onlinebootycall.com, ratemybottom.com, and nudeafrica.com. Your browser history also
revealed that you viewed personal adult ads such as casual encounters, and women seeking men on
Craiglist.org. A listing of the websites viewed are attached to and incorporated into this notice under t a b
12.

Specification # 14
An examination of your browser history for July 9, 2008, revealed that you visited the pornographic
websites ratemybottom.com, and nudeafrica.com. Your browser history also revealed that you viewed
personal adult ads such as casual encounters on Craiglist.org. A listing of the websites viewed a r e
attached to and incorporated into this notice under tab 12.

Specification # 15
An examination of your browser history for July 10, 2008, revealed that you visited the pornographic
websites ratemybottom.com, and nudeafrica.com. Your browser history also revealed that you viewed
personal adult ads such as casual encounter on Craiglist.org. A listing of the websites viewed are
attached to and incorporated into thisnotice under tab 12.

Specification # 16
An examination of your browser history for July 11, 2008, revealed that you visited the pornographic
websites ratemybottom.com, and nudeafrica.com. Your browser history also revealed that you viewed
personal adult ads such as casual encounters and women seeking men on Craiglist org. A listing of the
websites viewed are attached to and incorporated into this notice under tab 12.

Specification # 17
An examination of your browser history for July 14, 2008, revealed that you visited the pornographlc
websites ratemybottom.com, and nudeafrica.com. Your browser history also revealed that you viewed
personal adult ads such as casual encounters on Craiglist.org. A listing of the websites viewed are
attached to and incorporated into this notice under tab 12.

Specification # 18
An examination of your browser history for July 15, 2008, revealed that you visited the pornographlc
websites ratemybotlom.com, and nudeafricacom. Your browser history also revealed that you viewed
personal adult ads such as casual encounters on Craiglist.org A listing of the websites viewed are
attached to and incorporated into this notice under tab 12.

Specification # 19
An edamlriat~onof your browser hlstory for July 16 2008 revealed that you vlslted the pornographlc
websltes ratemyhottorn corn, and nudeafr~cacorn Your browser hlstory also revealed that you vlewed
personal adult ads s~rchas casual encoc~nters \&,ornerl seeklng \von?ell and women seeking rn?n cn
    Craiglist.org. A listing of the websites viewed are attached to and in'corporated into this notice under tab
    12.

    Specification # 20
    An examination of your browser history for July 21, 2008, revealed that you visited the pornographic
    websites ratemybottom.com, and nudeafrica.com. Your browser history also revealed that you viewed
    personal adult ads such as casual encounters on Craiglist.org. A listing of the websites viewed are
    attached to and incorporated into this notice under tab 12.

    Specification # 21
    An examination of your browser history for July 22, 2008, revealed that you visited the pornographic
    websites ratemybottom.com, and nudeafrica.com. Your browser history also revealed that you viewed
    personal adult ads such as casual encounters on Craiglist.org. A listing of the websites viewed are
    attached to and incorporated into this notice under tab 12.
                                                 f                                                                 I
'   Specification # 22
    An examination of your browser history for July 23, 2008, revealed that you visited the pornographic
    websites ratemybottom.com, and nudeafrica.com. Your browser history also revealed that you viewed
    personal adult ads such as casual encounters and erotic services on Craiglist.org. A listing of the
    websites visited are attached to and incorporated into this notice under tab 12                                1
    Specification # 23
    An examination of your browser history for July 24, 2008, revealed that you visited the pornographic
    websites raternybottom.com, and nudeafrica.com. Your browser history also revealed that you viewed
    personal adult ads such as casual encounters and erotic services on Craiglist.org. A listing of the
    websites viewed are attached to and incorporated into this notice under tab 12.
                                           L


    Specification # 24
    An examination of your browser history for July 25, 2008, revealed that you viewed personal adult ads
    such as casual encounters on Craiglist.org. The sites accessed are listed below.

          07/25/2008 13:37   http:/Iwashinqtondc craiqslist.orq/search/cas/?query=w4m
          07/25/2008 13:38   http:/lwashinqtondc.craioslisl orq/dodcasn69512284.html
          07/25/2008 13:38   http://washinqlondc craiqsiist.or~/search/cas/?query-m~4m
         07/25/2008 13.38    http:llwashinqlondc.craiqsiist.orqlsearchlcas/?quew=w4mni
          07/25/2008 13 38   http://washinqtondc craiqslisl orqlcqi-binlpersonais.cqi?cateqory=cas
         07/25/2008 13:38    http://washinqlondc.craiqslisl.orqlsearch/cas/?~ue~=w4m
         07/25/2008 13:38    http:llwashinqtondc.craiqslist.orqlmldlcs6922067.html

    Specification # 25
    An examination of your browser history for July 28, 2008, revealed that you viewed personal adult ads
    such as casual encounters and erotic services on Craiglist.org. The sites accessed are listed below.

                             hflp://washingtondc.cra~gslist.orgldocl~l
                             http://washinglondc cra1gsl1st.orgldodcasn71657328.hlml
                             http://washingtondc.craigslisl org/doc/casf772842643 hlml
                             http://washingtondc craigslisI.org/dodcafl72362062 hlml
                             l~flp:l/wastiinglondc.craigslist.org/mldlcs/7715G8292hlml
                             http://washlngtondc craigslisl oig/nva/casf773069685hln,l
                             http //washirigtondc craigsl~storglnvalcas/773726283 hlml
                             http.//washinglondccraigsl1sl,org/doc/cas~73719630ht1nl
                             http.//washinglondc.craigsl~slorg/search/ers/7query=w4m
                             Iillp://washtngtondc craigsl1st.o~g/doders/7735878-I6
                                                                                 Iitrnl
                             ~illp.ilwasliiiig1or~dc
                                                  cra~gslislorg/1iva!cas~?73731173 l l t i ~ i l
Specification # 26
An examination of your browser history for July 29, 2008 revealed that you viewed personal adult ads
such as casual encounters on Craiglistorg. The sites accessed are listed below.

                          http://washingtondc.craigslist.org/dodcafl74723822.html
                         http://washingtondc.craigslist.org/dodcafl73942199.html
                         http://washingtondc.craigslist.org/dodcafl72948167.html
                          http://washingtondc.craigslist.orgldodcas1773023639.html
                          http://washingtondc.craigslist.orglnva/ca~74761684.html
                          http://washingtondc.craigslist.orglnvalcas~74586477.htmI
                          http://washingtondc.craigslist.orglrnldlcas~74417827.
                                                                             html
                          http://washingtondc.craigslist.org/rnld/cas~74385346.html
                                                                                                              I
Specification # 27
An examination of your browser history for July 30, 2008, revealed that you visited the pornographic
website onlinebootycall.com. Your browser history also revealed that you viewed personal adult ads such
as casual encounters and erotic services on Craiglist.org. A listing of the websites viewed are attached to
and incorporated into this notice under tab 12.

Specification # 28
An examination of your browser history for July 31, 2008, revealed that you viewed personal adult ads
such as casual encounters on Craiglist.org. The sites accessed are listed below.




Specification # 29
An examination of your browser history for August 5, 2008, revealed that you visited the pornographic
website onlinebootycall.com. The site accessed is listed below.

 08/05/2008 9:06   hltp Ilwww onlinebootycall corn


Specification # 30
An examination of your browser history for August 8, 2008, revealed that you viewed personal adult ads
such as casual encounters and women seeking men on Craiglist.org. The sites accessed are listed
below.




Specification # 31
An exam~nat~orl of your browser Illstory for kc~gust13, 2008, revealed that you v~s~ted
                                                                                     the pornograpti~c
webslte onl~nebootycallcom The sctes accessed are l~stedbelow
Specification # 32
An examination of your browser history for August 15, 2008, revealed that you viewed personal adult ads
such as erotic services on Craiglist.org The sites accessed are listed below.

                  http://washingtondc.craigslist.org/cgi-bin/personals.cgi?category=ers
                  http://washingtondc.craigslist .org/mld/ersR98226129.html
                  http://washingtondc.craigslist,org/mld/ersR98O65306.html
                  http://washingtondc.craigslist.org/mld/ersR98063576.
                                                                    html
                  http://washingtondc.craigslist.org/mld/ers/798056487.html
                  http://washingtondc.craigslist.orglmld/ersR98049050.html
                  http://washingtondc.craigslist.org/mld/ersR98031239.
                                                                    html
                  http://washingtondc.craigslist .org/search/ers/?query=w4m
                  http://washingtondc.craigslist.orglmld/ersR98002158.hlml
                  http://washingtondc.craigslist.orglmldlersR97946183.htm~
                  http://washingtondc.craigslistJorg/doc/ersn97874997.html
                  http://washingtondc.craigslist.org/search/ers/?query=w4m&s=lOO
                  http://washingtondc.craigslist.org/mld/ersR97835885.html

Specification # 33
An examination of your browser history for August 18, 2008, revealed that you viewed personal adult ads
such as casual encounter on Craiglist.org. The sites accessed are listed below.

                  http llwash~ngtondccra~gsllstorgldodcas/801572158 html
                  http llwash~ngtondccralgsllst orgldodcasl801704313 html
                  http llwash~ngtondccralgsllst orglnvalcasl801709388 html
                  hHp llwash~ngtondccralgsllst orgldodcasl801708240 html
                  http Ilwash~ngtondccra~gsllstorgldodcasl801709853 html
                  http llwash~ngtondccralgsllst orglnvalcasl801714273 html
                  hHp llwash~ngtondccratgsllst orglsearchlcasl~query=w4m
                  http llwash~ngtondccralgsllst orglcgl-b~nlpersonalscg~?category=cas
                  http Ilwash~ngtondccralgsllst orgldodcasn98538341 html
                  http Ilwash~ngtondccralgsllst orgldodcasn91458598 html
                  http Ilwash~ngtondccralgslrst orglsearchlcasl~query=mw4m
                  hHp Ilwash~ngtondccralgsl~storglmldlcasl801509396 html

Specification # 34
An examinat~onof your browser history for August 19, 2008, revealed that you v~ewedpersonal adult ads
such as erotic services and casual encounters on Craiglist.org. The sites accessed are listed below.

                  http Ilwash~ngtondccra~gsllstorg/mldlersl803680287 html
                  http Ilwash~ngtondccralgsl~storglmldlers1803651843 html
                  http Ilwash~ngtondccralgsl~storglmldlersl803608196 html
                  http llwash~ngtondccralgsllst orgl1nldlersi803507251htrnl
                  hflp Ilwash~ngtondccralgsllst orgldoders1803521354 html
                  http Ilwash~ngtondccralgsllst orglsearchlersl'query=w4n1
                  tlnp llviash~ngtondccralgsl~slo1glnvalersl000012427html
                  t ~ l l pllwasli~ngtondccra~gsl~st
                                                  orgldodersl79-Yi0376 html
                  Ill111~i~t~a:ll~ngtoi~dc
                                      crd~qslisi0 r g ~ ~ ~ a r c t i / ~ r ~ 1 7 q 1 1 e 1 ~ ~ = ~ ~ ~ ~ ~ 3 1 1 1
Specification # 35
An examination of your browser history for August 20, 2008, revealed that you viewed personal adult a d s
such as erotic services and casual encounters on Craiglist.org. The sites accessed are listed below




Based o n your admission in the interview conducted with the OIG and your sworn statement, I find that
you violated the NSF policy on Personal Use of Technology and Communication Resources which states
in relevant part, "Employees may make use of the Internet and electronic mail for matters that are not
official business provided that the following criteria are met: (1) the use does not result in an additional
charge to the government, (2) the use is not offensive to coworkers or the public (such as sexually explicit
or otherwise inappropriate web sites), and (3) the use is not for illegal activities (such as gambling or the
distribution of copyrighted materialslmedia through illegal file sharing [peer to peer] or otherwise)" You
also violated NSF Manual 15 Conflicts of Interest and Standards o f Ethical Conduct, which states i n
relevant part,

        "56 (c) "Misuse of Government Property. You should protect and conserve Government property
        and you must not use it, or allow its use, for unauthorized purposes. Government property
        includes, office supplies, Government mail and phone-services, computers, copying equipment,
        records, vehicles, and the like."

Penalty Consideration
In proposing this action I have considered your seven years of service with the National Science
Foundation and your favorable past performance appraisals. I find these factors insufficient to offset the
seriousness of the misconduct with which you are charged.

The offenses you are charged with are serious and significant. You were previously warned about the
seriousness of your actions, and despite receiving this notice you continued to utilize government
equipment in an inappropriate manner. Your blatant disregard fo.r governmental rules and regulations
were further exhibited when you visited pornographic websites days after preparing a statement for the
O I G where you apologized for keeping sexually explicit photographs on your computer and vowed to
never repeat such actions in the future. I consider these actions and your prior discipline of a Letter o f
Reprimand issued October 2, 2007 and a 3-day Notice of Suspension for Unacceptable Conduct issued
September 4,2008 as strong indicators that you do not have the potential to be rehabilitated

The incidents giving rise to this notice of proposed removal were not isolated, unintentional, or
inadvertent. They occurred during work hours on multiple occasions. You disregarded my d ~ r e c t
instruct~onsand boldly saved, sent, and v~ewedgraphlc images unsuitable for a government computer or
                environment. The fact that you believed that tlie graphc images stored on tile R drive of
any profess~or~al
your cornputer were private, desp(te l~aviriyreceived tlie NSF Seccrrlty VUarr11rigevery t~r-ile;/oil log on to
the computer, that states in relevant part "User should be aware that they have no expectation of privacy
when using NSF provided computers, access the Internet or electronic mail systems..." displays an
incredible lack of judgment. You not only stored graphic sexual images, but you sent them to individuals
outside of the aaencv utilizina the NSF electronic mail svstem. Further, given your position of
                                                                         , where you are the designated I T
proTesslonal, I woula nave expectea you to know better.

In addition, documentation exists which verifies that you completed the required NSF annual IT training
on August 8, 2008, and July 23, 2007. The training specifically dealt with the topic of misuse o f
government computer resources, including viewing or downloading pornography. I find particularly
troubling the fact that you completed training the same day you viewed adult personal ads on Craigslist,
and just 4 days after the training you accessed a pornographic website Clearly, you were aware during
the period of your violations that your behavior in that regard was counter to government policies

As your supervisor I have lost faith in your trustworthiness and in your ability to perform your job This is
based on your demonstrated lack of ability to follow basic instruct~ons and your disregard for
governmental policies I cannot in good conscience propose a penalty less than removal

This notice is a proposal and not a final action. You have the right to reply both orally or in writing or both
and to furnish amdavits and other documentary evidence in support of the answer. You have the right to
reply within fourteen (14) calendar days after the date you receive this proposal. You have the right t o b e
represented by an attorney or other representative. You have the right to a reasonable amount of official
time. You have the right to review the material which is r ~ J i p1lnt-m
                                                                   d     to s u ~ ~ othe
                                                                                      r t reasons fnr the action
given in th,e notice. A written reply should be directed to
of                                            /ou wish to reply orally, please contact
                 [U dllange an appointment.



           will carefully review this proposal notice, the material upon which the proposal is based and
consider any reply made by you or your representative before making a written decision You will remain
in duty status during the notice period of the proposed action.

If a decision is made to effect the removal, you have the right to file a grievance under the provisions of
the Collective Bargaining Agreement.

If you believe a personal problem has contributed to or caused your inappropriate behavior, I urge you to
make an appointment with an Employee Assistance Program (EAP) Counselor. This is a confidential
program, and you may reach a counselor by calling the COPE at (202) 628-5100 to schedule an
appointment. Recommending EAP is solely to advise you of the availability of assistance. Ultimately you
are responsible for correcting your conduct.

       have
If 1in11    anv auestinns re~ardinqyour rights or the procedures used in this matter, you may contact
                                 . .
                                                     in the
           can be reached on extension
                                   National Science Foundation
                                   4201 Wilson Boulevard
                                   Arlington, Virginia 22230




Date:                 January 15,2009

To:


From:


Subject:              Letter of Decision



By letter dated December 1, 2008, you were notified of a proposal to remove you from the
National Science Foundation. I was designated as the deciding official on that proposal..

You were advised of your rights to representation and to reply to me orally andlor in writing
within 14 calendar days of your receipt of the proposal. You requested additional time to respond
and were granted an extension until January 7, 2009. On January 7 you provided both an oral
and a written reply. In your written reply, you asked that I consider your belief that a personal
medical problem contributed to and caused your inappropriate behavior; that after receiving the
notice of proposed removal you sought assistance through the Employee Assistance Program
(EAP) and subsequently enrolled in counseling sessions; since mid 2007 you have been
experiencing a traumatic family breakup which has prevented you from seeing or speaking to
your children; and that article XXIV of the Collective Bargaining Agreement states that medical
conditions associated with alcoholism and mental health will be considered in determining
appropriate disciplinary action.

I have given full consideration to your oral reply that you presented while accompanied by your
representative                           , Local 3403 AFGE. During your oral reply you restated
many of the factors addressed in your written response, and asked that I also consider your claim
that you are an exemplary employee who has never encountered into any trouble while at NSF;
that fellow employees will attest to your good behavior; that you have experienced personal
issues that have prevented you from seeing your children until September 2008; that you
apologize for your actions; that you are a man of your word; and that you have a sexual
addiction that is considered a mental issue.

I have given full consideration to the information regardingthe charges contained in the Notice
of Proposed Removal dated December 1, 2008, and the factors raised in your oral and written
reply.

The proposal to remove you from the National Science Foundation was based on two charges.
Charge #I is Failure to Follow Instructions and-Charge#2 is Misuse of Government Equipment.
                                           ' L L ~ I SZI [L~~,C
                                                              ] q pap~znsradloll UT!1 'sny.L -pnpnoDs!Lu .~no.C01 JO]XJ
i   Qu!lnq!.11~ro3                           L I O ~
                    E SF,% ~ J O I ~ I ~ ~BD!I>;)LLI                   ~
                                                            e J P L LU!I?~D                                                  L I ~ ~ ~ ~
                                                                               mod jo uoddns u! L I O ! J ~ I L I ~ L [~2!pasu
    ,(LIE rIl!?n a ~ pap!i\o.~rl
                     r~                 I
                                  J ~ L az\Ry  nod '~a.~oaJoy/y-au!gd!os!p j o l a ~ a lale!~do~dde Su!u!ur.~app
    n! uo!)rpuo:, [e:,!paru JBLIJ JO L I O I ~ F ? . I ~ P I Saql       ~
                                                                  ~ I O pa.ia5Z!.rl a,wq pIno,N leql uo!~!puo:, le:,!paiu Xrre
    jo a.~:~\eun   S E . ~aays 'noK 1su!e8e uo!lx ii~xu!ld!3s!p pasodold                                   a u ! ~ayl le I E ~ PJ L I ~ J
    pm ~uaruaal8v?u!u!e3le~a;l!)~al[o-~                   aayl jo ~ J X 3,.(3!&1~
                                                                              X       l o /C~![!qF?s!.ldde3y.1p l a p ~ s u o 3aAey 1
                              '11Fd ln0d t10 AJ![!~!suo~s".'                                          ou~~~
                                                               30 73BI 31q!p313L1! UE s ~ ) B ~ ] s u'UO~]BU!ULI~)
    jo 13adso~daqi il)f,~\P ~ E aJ n no.( am!] yms I!lun swalqold 1no.4 q 1 ! ~p p 01 sdals a ~ ~ l e l u a ~ a l d
    Luz a T ) 01 ,O!l!qeu! lno.4 1 ~ 4 1pug 1 '8002 laqol30 u! uo!suadsns Lep-E a a q e pue 'LOOZ
             ~ opwru!lda~j o laua.1 e 3u!~!a3a~
    ~ a q o u!                                            Jaye L l ~ e l n ~ ~ p'Su!ma!ladxa
                                                                                  ~ed        alaM noL sa!lln31j~!p
    aqa jo ~ o s ! ~ a d n~sn o Las!ldde l o p u e a~rnjs?sseyaas o) Al!unpoddo aldure p ~ qaAeq noA
    ..wu aou an! pnpuo3s!m mo.4 01 pal lu!ep noL jeql sa~rrelswn9~!:,Zu!~enua~xaarp pue IeAouIal
     pasodold ~ n o LOJ as!l aizeii leq) lo!A-eqaq a~e!~do~ddeu!         a q l .sasuajjo ~noA30 ssausno!las ay,
    y8!ahz~nolou op Jo!Aeqaq 1noA ssalppe 01 sldu1a)le lua3al asail1 I E JaAamoy         ~      pug I . s u a l q o ~ d
    pa8alle ~noAssalppe 01 sno~uAuouv sl:,!ppv 1~11x3sse q3ns sdn0~8poddns snouLCuouv
    uo!~:,!ppv U! uo!)ed!q~vd lnoX pue ure~801d mue)s!ssv aa;Coldws aql y3no~q1a:,uels!sse
    yaas 01 slduraue lua3a~ nod palap!suo:, osle aheq 1 .Jo!AF?yaq ale!ldolddeu! 1noL pasne:,
    pue 01 palnq!~luo:,amq ' ~ 0 p!w   0 ~ 01 73eq 8u!lep sanss! Ll!ruq 3!1eurne.x11w3g!u8!s pue ualqold
     lexparu ~euosladB aha![oq no,< ley) u r ~ plnoS pa~ap!suo:, ~ n e qI uo!spap dm Su!y-eur u~
                                                                               .lil!~oq~ne~ op~e'dais!p
                                                                                              j         aq-elq
    r! pue Kyod d:,uaiie loj p~z8a~s!p  e 8u!;Cslds!p 'Jo!~eqaqale!ldoiddzu! aqj anu!luo3 01 asoyo noA
    'los!~~adns                                                                         ~
                 1no6 wo1j suo!pnqsrr! Bu!h!a3al 131je pue a:,!)ou 1m13 ~ U ! A E al!dsaa       .hqd~?~8owod
    %rpo]spue Bu!M~!A j o Llapdoldm! aqi pala~zo3'palaldtum noL ]eq] pag!)la:, no.4 y 3 ! y ~'8u!u!sq
    ,LI ] m u m pal!nba~ aql ley$ u! ,43!lod L3u38~palelo!~suo!]os inoh leql a3you uo A]ma[o am.%
    noA .laandm03 1uaurrtla~o31no;C r u o ~ j~ ~ ! l a ) e pu rl d x a .<llenxas     a,%owaiI
    ~os!,uadns nod WOJJ suo!1nnllsu! p a q a a J put? aJemgot; laad 01 Jaad pm sa[g ale!~do~dd-eu!
    ~U!PEO~UMOP JOJ LOOZ ' 2 1aqol30 uo p u ~ w ! ~ dJO   a ~1 3 l l q 1ppaA!a%i noX ~ e q [mauag
                                                                                            l       loa:,adsu~
    JO a31g~0ayl j o ~a~\!le~uasa.lda~ 01 lusmaaels inod u! pajl!wpe noA .1Su!lqno.u l i ~ suorpelju!
                                                                                                   a~
    ~noLj o A~l~a8uol    pue .awnlo/\ .uo!~!~adal~ue3y!u3rs aql pug I 'Imowal I ~ J E M pInoM
    dlluapuadapu! Su?prrrz)sq3sa p m snopas Llarua~lxaa n ~ I pacdmq:,   M        ale noh sasuaso ay) j o q l o a
                          'I[nj u! pau!elsns s! I fi' ailley3 yoalaya poddns u! pap!,%o~duo!1e)uau1n3op ay,
    JO a8ieq3 a q l j o d3e~n33oaql Auap IOU p!p noA 'lil!~gat?av u! pa'do8ua noL ley) svoddns h [ ~ e a p
    3111 am3 ayl ley] pug pue a8~ey:, s!ql jo lioddns u! uo!la)uarun:,op 1m?ag!u3!s ayl paMa!i\ai
    aAerl I                       los!~.ndns lnoL I(q os op 01 pa~~~nrlsu!    8u!aq iayt? 'sasod aA!ls9~8ns
    h[lrnxas UI uauroM passalp Al!lms jo sqdei801oqd pue ' u a u r o ~apnu 30 s y d ~ ~ 3 o l o y dsoap!^
    ~!a!ldxa dIimxas ' , Q ! A ~ ~~t?nxas
                                     E     u! pa8e8ua asmo mod jo sa9m! a q d d ' ~ a l n d w o ~paS!sse
    i u a u m a ~ o 9moA wol. anowai 01 p a p j no,( alaym suo!~eqpads82 iq pvoddns s! I # a3.req3
I have considered your claim that you are an exemplary employee and have never encountered
any trouble while at NSF. The record belies this assertion. Within the past 15 months, you have
received a Letter of Reprimand and a 3 day suspension for Unacceptable Conduct. The
suspension involved you verbally attacking a female employee. "Ihis incident not only startled
the female employee, but it also caused several of your coworkers who witnessed the event great
concern. It is troubling that you continue to characterize yourself as an exemplary employee
despite the fact that your record shows otherwise.

In addition 1 have considered your more than 7 years of service with the National Science
Foundation and your favorable past performance appraisals. However. 1 find these factors
insufficient to offset the seriousness of the misconduct with which you are charged.

I have considered the fact that you encumber the position o f .
                                               and that your position affords you privileged access
to computer resources and information systems. I find the computer related abuse of your
conduct directly relates to your position and has negatively affected your supervisor's confidence
in your continued ability to perform your duties.

1 have considered your prior discipline of a Letter of Reprimand issued October 2,2007 and a 3-
day Notice of Suspension for Unacceptable Conduct issued September 4,2008.

The fact that your misconduct was frequently repeated over an extended period of time af'ter
receiving clear notice to discontinue the behavior mitigales against your potential for
rehabilitation. Although in your oral reply you indicate that you are a man of your word and that
you wiIl not engage in this activity again, I am not convinced. Your inappropriate actions have
proved your judgment to be questionable and your trustworthiness diminished. As you have
repeatedly violated the trust that has been bestowed upon you, I find that yoilr removal wiIl
increase the efficiency of the service.

I tind no alternate sanction is appropriate given the severe nature of your misconduct. Given the
seriousness and frequency of your actions 1 am led me toJconclude that removal is the only
appropriate penalty.

After full consideration and examination of all the relevant factors and in accordance with CFK 5
Part 752, Ifind the charges are fully supported by the evidence. Accordingly: it is my decision
to remove you from your position and froin employment with the National Science Foundation
effective J a n u a r y 23, 2009.

If you wish, you have the right b appeal this action, in writing, to the h4erit Systems Prolection
Board (MSPB), Washington Regional Office, 1800 Diasonal Road, Alexandria, Virginia 223 I 4.
For your convenience, a copy of the MSPB appeal form and procedures are enclosed. I f you
elect to appeal, you must file your appeal with the MSPB no later than 30 days after the effective
date of' your removal. You may be represelited by a representative of your choice in filing an
appeal.
        Also in accordance with Article XVI of the Collective Bargaining Agreement, you may present a
        grievance at any time after receipt of this decision, but not later than twenty-five (25) calendar
        days after receipt. Your grievance must begin as an informal grievance and may be presented
        either orally or in writing. You may elect only one ( 1 ) forun'~to challenge this decision.

.   ,
        If you believe this action was motivatedin whole or in part by discrimination because of your
        race, color, religion, sex, age, national origin, physical or mental disabiIity, or your all.egation(s)
        of reprisal for prior EEO activity, you have the following opti.ons available to you: (1) You may
        appeal this action and your allegation(s) of discrimination and!or r.eprisa1 to the Merit Systems
        Protection Board, or (2) pursuant to 29 CFR Part"l614, you may file a complaint about this
        action with the National Science Foundation Oftice of Equal Opportunity Programs. If you
        decide to file a discrin~inationcomplaint about this action, you must bring your allegation(s) of
        discrimination to the attention of an EEO counselor within forty-five (45) calendar days of the
        effective date of your removal..

        Exercising your right to file an appeal will not postpone the January 23, 2009 effective date of
        your removal.




            I ackno\yl.ggepeceipt of this document.

                                                                       --       1115/09          --
                                                                       Date
